\

No. 20 -

In the
SUPREME COURT OF THE UNITED STATES
GEOFFREY M. YOUNG, pro se, Petitioner
vs.
AMY McGRATH and ANDY BESHEAR,
Respondents. Patrick Hughes, Counsel for Amy
McGrath. Christie Moore, Bailey Roese and
Gina Young, Counsel for Andy Beshear
On Petition for Writ of Certiorari to the
Kentucky Court of Appeals

APPENDIX

y

al
APPENDIX - TABLE OF CONTENTS
Appendix A: Order Dismissing Petitioner's
Ballot Challenge against Amy McGrath. Pages a2-a8
Appendix B: Order Dismissing Petitioner's
Appeal

Pages a8-a23

Appendix C: Order Dismissing Petitioner's
Motion to Set Aside

Pages a23-a31

Appendix D: Order Denying Discretionary
Review

Page a32

Appendix E: Order Dismissing Petitioner's
Ballot Challenge against Andy Beshear
Pages a33-a35
Appendix F: Order Dismissing Petitioner's
Motion to Set Aside

Pages a35-a45

Appendix G: Cover Letter Returning
Petitioner's Motion for Discretionary Review
Pages a46-a47

-V

a2
Appendix A
COMMONWEALTH OF KENTUCKY APR 23 2019
SCOTT CIRCUIT COURT
DIVISION I
CASE NO. 18-CI-00541
GEOFFERY (sic) YOUNG

PLAINTIFF (sic)

v.
amy McGrath

DEFENDANT (sic)

ORDER DISMISSING CASE
Plaintiff, Geoffrey Young, has filed a motion
with this court challenging the ballot status of
Defendant, Amy McGrath, concerning her bid for
office as Democratic nominee for Kentucky's Sixth
Congressional District. Having reviewed pleadings
and memorandum of the parties and being aware of
the time cycle of the now-completed election, this
Court finds the action moot and Defendant entitled
to a judgement as a matter of law.

a3
FINDINGS OF FACT
Subsequent to the May, 22, 2018 Primary
Election, Plaintiff filed a Motion Challenging the
Ballot Status of Amy McGrath, Democrat, in which
he alleged the Kentucky Democratic Party engaged
in conduct that illegally controlled the outcome of the
May, 2018, Democratic primary election. Upon filing
the motion, Plaintiff did not request from the clerk a
summons for service, insisting that he personally
mailed a copy to Defendant. The action, therefore,
was not properly commenced. Notwithstanding, the
Plaintiff moved for default judgment after no
response from the Plaintiff.
On November 1, 2018, the court held a hearing
on the Motion for Default Judgement and denied the
motion for lack of service upon Defendant. On
November 5, 2018, the Plaintiff effected proper

a4
service of his motion on Defendant. On November 6,
2018, Defendant lost her bid to represent the Sixth
Congressional District of Kentucky. Plaintiff persists
in bringing his motion.
CONCLUSIONS OF LAW
Defendant lost her bid to represent the Sixth
Congressional District of Kentucky making all
allegations of Plaintiff moot. In a recent opinion, the
Kentucky Supreme Court has ruled that a moot case
is one that seeks judgement upon some matter
which, when rendered for any reason, cannot have
any practical effect upon a then existing controversy.
Footnote 1: Morgan v. Getter; 441 S.W.3d 94, 98-100
(Ky 2014).
Several exceptions to this rule were recognized
by the Kentucky Supreme Court, the first of which
being the collateral consequences exception. This

a5
exception applies when sufficient consequences
remain in controversy beyind termination of original
controversy for a court to hear the case. Footnote 2:
Id. at 98-99. Next, the court recognizes the voluntary
cessation exception. Here, a defendant voluntarily
ceases an action in a way that is likely using
mootness as a manipulative tool for his or her own
benefit. Footnote 3: Id. Finally, the court recognized
issues capable of repetition, yet evading review as an
exception to mootness in situations where the issue
is too brief in nature to remain a live controversy
long enough for a court to issue a ruling. Footnote 4:
Id. at 100. As a atch-all provision, the court also
notes that an exception exists for otherwise moot
cases when a question presented is of a public
concern, there is a need for an authoritative
determination for the future guidance of public

\
A

a6
officers, and there is no likelihood of reoccurrence of
the question. Footnote 5: Id. At 102.
In the case at hand, Plaintiffs challenge of
Defendant's bona tides became moot upon her loss of
the election and subsequent judicial review would
have no practical legal effect. The facts do not
present circumstances falling within the scope of any
of the aforementioned exceptions to the rule
prescribing mootness. Even if Defendant did not
have the requisite bona fides, no consequences
persist

to

keep

Plaintiff s

challenge

alive.

Defendant's loss was involuntary and, therefore, not
manipulative. The bona fides of Defendant do not
open themselves to repeat challenge by the Plaintiff,
as there is no guarantee she will run for office again.
Finally, there is no substantial public interest in
continuing the challenge of Defendant's bona fides

\

a7
after she has lost the election.
There is no legal remedy available to the
Plaintiff. This court would not be able to remove the
Defendant's name from the ballot or void her election
if she was found to lack the requisite bona fides
because the election is over, and she has lost.
Because there is no legal remedy available to
Plaintiff and the action does not qualify as an
exception to the rule of mootness, this court
dismisses this case as moot.
ORDER AND JUDGMENT
For the reasons set forth herein, no legal
remedy exists for Plaintiff and no exception to
mootness saves his motion. Defendant is entitled to
dismissal as a matter of law.
WHEREFORE, this court DISMISSES this action as
MOOT. This dismissal is a final order by the court

\

a8
and Plaintiff is entitled to appeal.
Entered this 23rd day of April 2019.
(signature)__________
JEREMY MATTOX, JUDGE
SCOTT COUNTY
DIVISION 1
COPIES TO: Attorneys of Record

Appendix B
Commonwealth of Kentucky
Court of Appeals
No. 2019-CA-000590-MR
GEOFFREY M. YOUNG
v.

APPELLANT

APPEAL FROM SCOTT CIRCUIT COURT
HONORABLE JEREMY MATTOX, JUDGE
ACTION NO. 18-CI-00541

AMY McGRATH

APPELLEE

ORDER DISMISSING APPEAL

\
*s

a9
** sfc#

BEFORE: LAMBERT, MAZE, AND L. THOMPSON,
JUDGES.
This cause comes before the Court on
Appellee's motion to dismiss the appeal. Appellee
also moves for sanctions against Appellant.
Pursuant to CR (footnote 1: Kentucky Rules of Civil
Procedure) 74.02(5), Appellant has moved to transfer
this case to the Kentucky Supreme Court. Footnote
2: We may only recommend a case for transfer to the
Kentucky Supreme Court under CR 74.02(5). He also
moved for impositions of sanctions against McGrath
and her lawyer. Having reviewed the record, and
being otherwise sufficiently advised, IT IS HEREBY
ORDERED as follows: 1) Appellant's motion to
transfer this case to the Kentucky Supreme Court
shall be, and hereby is, DENIED; 2) Appellant's

\

alO
motion for sanctions against McGrath and her
lawyer is DENIED; 3) Appellee's motion to dismiss
the appeal shall be, and hereby is, GRANTED. This
appeal is DISMISSED; and 4) Appellee's motion for
sanctions shall be, and hereby is, DENIED.
I. BACKGROUND
Subsequent to the May 22, 2018 primary
election, on September 27, 2018, Appellant Geoffrey
M. Young filed a civil action in the Scott Circuit
Court challenging the ballot status, i.e., bona fides, of
Appellee Amy McGrath. Young and McGrath were
candidates for the Democratic nomination to the
United

States

House

of Representatives

Kentucky's Sixth Congressional District.

for

McGrath

won the primary election.
Young attempted to serve McGrath via
certified mail on October 3, 2018. The certified mail

\
\

all
was returned as undeliverable on October 22, 2018.
Young filed a motion for default judgment on October
31, 2018. The circuit court denied the motion for a
default judgment, finding that McGrath had not
been served. On November 5, 2018, Young caused
McGrath to be served via Constable. McGrath lost
the general election on November 6, 2018.
The circuit court dismissed the action as moot
on April 23, 2019. Young filed a notice of appeal on
April 26, 2019. On May 15, 2019, this Court issued
an order directing Young to show cause why this
appeal should not be dismissed as moot. Young filed
a response to the show cause order and a motion to
transfer the case to the Kentucky Supreme Court.
McGrath moved to dismiss the appeal as moot.
II.

ANALYSIS

The circuit court dismissed the action as moot

\

al2
on April 23, 2019, finding:
There is no legal remedy available to
the Plaintiff. This court would not be
able to remove the Defendant's name
from the ballot or void her election if
she was found to lack the requisite bona
fides because the election is over, and
she has lost. Because there is no legal
remedy available to Plaintiff and the
action does not qualify as an exception
to the rule of mootness, this court
dismisses this case as moot.
We agree this case is moot due to McGrath's
having lost the general election. The Kentucky
Supreme Court has explained:
[a] 'moot case' is one which seeks to get
a judgment... upon some matter which,
when rendered, for any reason, cannot
have any practical legal effect upon a
then existing controversy... [t]he
general rule is, and has long been, that
where, pending an appeal, an event
occurs which makes a determination of
the question unnecessary or which
would render the judgment that might
be pronounced ineffectual, the appeal
should be dismissed. The concern
underlying this rule as to mootness is

V

al3
ultimately the role of the courts within
our system of separated powers, a role
that does not extend to the issuance of
merely advisory opinions.
Morgan v. Getter, 441 S.W.3d 94, 98-99 (Ky. 2014)
(citation omitted) (emphasis original). See also
Louisville Transit Co. v. Dept, of Motor Transp., 286
S.W.2d 536, 538 (Ky. 1956) (It is the universal rule
that courts will not consume their time in deciding
moot cases, and have no jurisdiction to do so.”).
Stephenson v. Woodward, 182 S.W.3d 162 (Ky.
2006), relied upon by Young, is distinguishable.
Stephenson involved a dispute concerning the
qualifications for a seat in the Kentucky State
Senate. The day before the general election, the
opposing candidate filed a motion in the Jefferson
Circuit Court to disqualify Stephenson under KRS
118.176, alleging Stephenson “failed to meet the

\

al4
residency requirement set forth in Section 32 of the
Kentucky Constitution.” Id. at 164. The general
election was held the next day, and the names of
both candidates appeared on the ballot, with
Stephenson receiving more votes. Id. at 165.
Stephenson argued the circuit court lacked
jurisdiction to enter an order disqualifying her on
November 22, 2004 as “the polls had closed and all
votes had been cast prior to the time of the Jefferson
Circuit Court order.” Id. The Kentucky Supreme
Court rejected Stephenson's argument because ICRS
118.178 (sic) unambiguously provides that an action
challenging the bona lides of a candidate “may be
commenced at any time prior to the election.”
The Stephenson case was not moot because
Stephenson won the election. Therefore, the
Jefferson Circuit Court was able to fashion relief,

\

al5
such as issuing an injunction prohibiting the County
Board of Elections from certifying the election
results. It further entered its November 22,2004
order finding that Stephenson “was not a bona fide
candidate and therefore ineligible to appear on the
ballot,” and therefore “lost all rights to that office,”
before Stephenson “had taken the oath of office,
before she had been sworn in as a State Senator, and
before the term of office which she sought
commenced on January 1, 2005.” Id. at 168.
In the case subjudice, because McGrath lost
the general election, the circuit court could not take
any action which would have had “any practical legal
effect upon a then existing controversy. Morgan, 441
S.W.3d at 99 (emphasis in original). See also
Lehman v. Gibson, 482 S.W.3d 375, 381 (Ky. 2016)
(“A court must, of course, dismiss an appeal when a

\

al6
change in circumstance renders that court unable to
grant meaningful relief to either party”) (citation
omitted).
Our jurisprudence recognizes certain
exceptions to the mootness doctrine. Having
determined the case is moot, we must consider
whether an exception to the mootness doctrine
applies. Appellant argues the public interest
exception applies, and further contends this matter
is capable of repetition, yet evading review. We
disagree.
The public interest exception allows a
court to consider an otherwise moot case
when (1) the question presented is of a
public nature; (2) there is a need for an
authoritative determination for the
future guidance of public officers; and
(3) there is a likelihood of future
recurrence of the question.
Morgan, 441 S.W.3d at 102. All three elements of

\

al7
the public interest exception must be clearly shown.
Id.
Young argues he and McGrath “might both be
opponents in 2020 for the nomination to the same
office.” However, Young has not shown there is a
need for authoritative determination for the future
guidance of public officers on this issue. “As the
Supreme Court of Illinois noted, if all that was
required under this exception was that the opinion
could be of value to future litigants, the exception
would be so broad as to virtually eliminate the notion
of mootness.” Morgan, 441 S.W.3d at 102 (internal
quotation omitted).
In the instant case, the circuit court did not
reach the merits of the challenge to McGrath's
candidacy. “A 'bona fide' candidate means one who is
seeking nomination in a primary or election in a

\

al8
special or regular election according to law.” KRS
118.176. “As used in KRS 118.176, bona tides refers
to the good faith, genuineness, and qualifications of a
candidate to hold the office to which election is
sought.” Kentucky State Bd. ofElections v. Faulkner,
S.W.3d

, 2019 WL 1177452, at *4 (Ky.

2019) (to be published). [Alternate cite: Ky. State
Bd. ofElections v. Faulkner, 2018-SC-000351-TG, at
*9 (Ky., Dec. 13, 2018)] We cannot conclude there is
a need for future guidance of public officers in this
area as it partains to McGrath or others. Cf.
Lehmann v. Gibson, 482 S.W.3d 375, 382 (Ky. 2016)
(public interest exception to the mootness doctrine
applied where the case presented an issue of first
impression in the Kentucky courts — whether “civil
discovery should be stayed pending the conclusion of
a related ciminal prosecution so guidance for future

\

al9
cases [was] warranted.”) Id.
We further hold this case is not one that is
capable of repetition, yet evading review.
The exception for cases “capable of
repetition, yet evading review,” has two
elements: (1) the challenged action must
be too short in duration to be fully
litigated prior to its cessation of
expiration, and (2) there must be a
reasonable expectation that the same
complaining party will be subject to the
same action again.
Id. at 100. See also Commonwealth v. Hughes, 873
S.W.2d 828, 831 (Ky. 1994) (emphasis added) (“[W]e
find that the events which gave rise to the matter
presently before the Court cannot be said to be
inherently evasive of review.”).
This challenged action is not inherently too
short in duration to be fully litigated prior to its
cessation or expiration because, as shown by
Stephens (sic), the circuit courts may rule on a

V

a20
challenge to the bona fides of a candidate which is
filed before the election even after the election is held
under certain circumstances, such as where the
challenged candidate wins.
Moreover, although Young insists he served
McGrath properly by certified mail on October 3,
2018, he does not dispute that the mail was returned
as undeliverable. Under CR 4.01(l)(a), with respect
to a resident of Kentucky, “[s]ervice by registered
mail or certified mail is complete only upon delivery
of the envelope (emphasis added). Young argues
McGrath “did everything she could to ensure that the
Court would not decide the case on its merits before
the general election” by “intentionally refusing to
pick up the challenge [summons and complaint] at
the Georgetown Post Office,” but Young ignores that
he could have had McGrath served through the

V

a21
Constable at any time before November 5, 2018.
Footnote 3: Young asserts the circuit court “would
have had the authority to order an officer of the
Court to contact Ms. McGrath on September 27 or
28, inform her that a single hearing would be held on
October 11, inform her that her presence would be
required at that time to testify... and inform her that
the court would enter a final and appealable decision
on the merits of the Movant's challenge on the day of
the evidentiary hearing or on the next day.” Young's
suggestion clearly would not comport with the
requirements of CR 4 or due process of law. See,
e.g., Ely v. US. Coal & Coke Co., 49 S.W.2d 1021,
1025 (Ky. 1932) (“A judgment entered without
service upon defendants in some method required by
law is void.”).
Finally, we deny Young's motion to transfer

\

a22
this case to the Kentucky Supreme Court. CR 74.02
(5) provides this Court may recommend a case for
transfer to the Kentucky Supreme Court “at any
time” if the case “falls within the criteria set forth in
paragraph (2) of CR 74.02.” CR 74.02(2), in turn,
provides:
Such transfer is within the discretion of
the Supreme Court and will be granted
only upon a showing that the case is of
great and immediate public importance,
except that if separate appeals in a
criminal case to the Supreme Court and
to the Court of Appeals arise from the
same trial, the Supreme Court in its
discretion, on motion of the appellant
whose appeal lies to the Court of
Appeals, may transfer the latter appeal
to the Supreme Court. The filing of a
notice of appeal in a case in which a
death penalty has been imposed will
automatically serve to transfer the
appeal to the Supreme Court.
We conclude this case is not “of great and immediate
public importance” because the circuit court properly

\

a23
applied the mootness doctrine.
Ill

CONCLUSION

WHEREFORE, Appellant's motion to transfer
this case to the Kentucky Supreme Court is
DENIED. This appeal is DISMISSED AS MOOT.
All motions for sanctions are DENIED.
ENTERED: JUL 11 2019
(signature of James H. Lambert)
JUDGE, COURT OF APPEALS
Appendix C
Commonwealth of Kentucky
Court of Appeals
No. 2019-CA-000664-I
GEOFFREY M. YOUNG

MOVANT

ON MOTION FOR INTERLOCUTORY RELIEF (sic)
FROM SCOTT CIRCUIT COURT
v. HONORABLE JEREMY MATTOX, JUDGE
ACTION NO. 18-CI-00541

\
s

a24
amy McGrath

RESPONDENT
ORDER
sfcsjc

jfcjjs

BEFORE: LAMBERT, MAZE, AND L. THOMPSON,
JUDGES.
This cause comes before the Court on Movant
Geoffrey M. Young's motion to set aside the circuit
court's order denying him relief pursuant to KRS
(footnote 1: Kentucky Revised Statutes.) 118.176(4).
Movant also filed a motion to transfer this case
[footnote 2: We may only recommend a case for
transfer to the Kentucky Supreme Court under CR
74.02(5).] pursuant to CR (footnote 3: Kentucky
Rules of Civil Procedure.) 74.02(5). Having reviewed
the record, and being otherwise sufficiently

\

\

a25
advised, IT IS HEREBY ORDERED as follows: 1)
Movant's motion to set aside shall be, and hereby is,
DENIED; and 2) Movant's motion to transfer to the
Kentucky Supreme Court shall be, and hereby is,
DENIED.
I.

BACKGROUND

Subsequent to the May 22, 2018 primary
election, Movant Geoffrey M. Young filed a civil
action in the Scott Circuit Court challenging the
ballot status, i.e., bona fides, of Respondent Amy
McGrath. Young and McGrath were candidates for
the Democratic nomination to the United States
House of Representatives for Kentucky's Sixth
Congressional District. McGrath won the primary
election, but she lost in the general election on
November 6, 2019. The circuit court dismissed the

\

a26
action as moot on April 23, 2019. Young filed his
motion to set aside on May 9, 2019 [sic: the motion
was received and date-stamped by the Court on April
29, 2019.] On May 15, 2019, this Court issued an
order directing Young to show cause why this case
should not be dismissed as moot because the circuit
court did not strike McGrath from the ballot.
I.

ANALYSIS

KRS 118.176 provides, in pertinent
part:
(2) The bona fides of any candidate
seeking nomination or election in a
primary or in a special or regular
election may be questioned by any
qualified voter entitled to vote for the
candidate or by an opposing candidate
by summary proceedings consisting of a
motion before the Circuit Court of the
judicial circuit in which the candidate
whose bona fides is questioned resides.
An action regarding the bona fides of
any candidate seeking nomination or
election in a primary or in a special or
regular election may be commenced at

\

a27
any time prior to the regular election.
The motion shall be tried summarily
and without delay. Proof may be heard
orally, and upon motion of either party
shall be officially reported. If the Circuit
Judge of the circuit in which the
proceeding is filed is disqualified or
absent from the county or is herself or
himself a candidate, the proceeding may
be presented to, heard and determined
by the Circuit Judge of any adjoining
judicial circuit.

(4) If the court finds the candidate is not
a bona fide candidate it shall so order,
and certify the fact to the board of
elections, and the candidate's name
shall be stricken from the written
designation of election officers filed with
the board of elections or the court may
refuse recognition or relief in a
mandatory or injunctive way. The order
of the Circuit Court shall be entered on
the order book of the court and shall be
subject to a motion to set aside in the
Court of Appeals. The motion shall be
heard by the Court of Appeals or a
judge thereof in the manner provided
for dissolving or granting injunctions,
except that the motion shall be made
before the court or judge within five (5)

\

a28
days after the entry of the order in the
Circuit Court, and may be heard and
tried upon the original papers, and the
order of the Court of Appeals or judge
thereof shall be final.
In Gibson v. Thompson, 336 S.W.3d 81, 83
(Ky. 2011), three registered Democrats moved for
relief under CR 65.09 from an order of this Court
refusing to invalidate the candidacy of Thompson, a
Republican candidate for Knott County JudgeExecutive. The Movants argued Thompson was not
qualified as a candidate due to certain federal
criminal convictions. Id. at 81. The circuit court did
not reach movants' arguments, but dismissed the
action without prejudice, “concluding that the
Movants, all registered Democrats, lacked standing
to challenge Thompson's

qualifications

in the

primary election.” Id.
The Movants moved to set aside the trial

\
-I;

a29
court's order pursuant to KRS 118.176(4).

This

Court denied the motion to set aside, and the
Kentucky Supreme Court denied the movants' CR
65.09 motion, holding:
Here, the trial court made no finding
that Thompson was not a bona fide
candidate. Its order dismissing is based
solely on the Movants' lack of standing.
Furthermore, the order dismissing is a
final and appealable order. Because the
expedited appeal procedure set forth in
KRS 118.176(4) applies only to orders
disqualifying a candidate, the Movants
were not entitled to move the Court of
Appeals to set aside the order. For this
reason, the Movants' motion for
interlocutory relief pursuant to CR
65.09 must be denied.
Id. at 82.
In the case sub judice, the circuit court did not
find McGrath was “not a bona fide candidate.”
Young therefore may not invoke this Court's
jurisdiction through the expedited appeal procedure

\
■%

a30
set forth in KRS 118.176(4).
Finally, we deny Young's motion to transfer
this case to the Kentucky Supreme Court. CR 74.02
(5) provides this Court may recommend a case for
transfer to the Kentucky Supreme Court “at any
time” if the case “falls within the criteria set forth in
paragraph (2) of CR 74.02.” CR 74.02(2), in turn,
provides:
Such transfer is within the discretion of
the Supreme Court and will be granted
only upon a showing that the case is of
great and immediate public importance,
except that if separate appeals in a
criminal case to the Supreme Court and
to the Court of Appeals arise from the
same trial, the Supreme Court in its
discretion, on motion of the appellant
whose appeal lies to the Court of
Appeals, may transfer the latter appeal
to the Supreme Court. The filing of a
notice of appeal in a case in which a
death penalty has been imposed will
automatically serve to transfer the
appeal to the Supreme Court.

\

a31
We conclude this case is not “of great and immediate
public importance” because Young's motion to set
aside is governed by the unambiguous provisions of
KRS 118.176(4), and the motion is simply not within
the parameters of that statute.
II.

CONCLUSION

WHEREFORE, Movant's motion to set aside
pursuant to KRS 118.176(4) is DENIED. Movant's
motion to transfer this case to te Kentucky Supreme
Court is DENIED.
ENTERED: JUL 12 2019
(signature of James H. Lambert)

JUDGE, COURT OF APPEALS

\

a32
Appendix D

Supreme Court of Kentucky
2019-SC-000439-D
(2019-CA-000590)
GEOFFREY YOUNG

V.

MOVANT

SCOTT CIRCUIT COURT
2018-CI-00541

AMY MCGRATH

RESPONDENT

ORDER DENYING DISCRETIONARY REVIEW
The motion for review of the decision of the
Court of Appeals is denied.
Keller, J., not sitting.
ENTERED: March 18 .2020.
(signature of John D. Minton, Jr.)
CHIEF JUSTICE

\

a33
Appendix E
NO. 19CI06292

JEFFERSON CIRCUIT COURT
DIVISION SIX (6)
JUDGE OLU A. STEVENS

GEOFFREY YOUNG
v.

MOVANT
ORDER

ANDY BESHEAR

RESPONDENT

The matter comes before the Court for
consideration of the Movant Geoffrey Young's Motion
challenging the ballot status of Respondent Andy
Beshear for Governor of Kentucky pursuant to KRS
118.176. In Kentucky, a candidate seeking election
to the office of Governor must be at least thirty years
of age and have resided in the Commonwealth for at
least six (6) years preceding the general election. A
careful review of Movant's motion indicates it is
devoid of any allegation that the Respondent is not

\

a34
at least thirty years old or has not resided in the
Commonwealth for at least six years preceding the
general election of November 5, 2019. The Movant's
claims regarding a conspiracy are irrelevant to his
his claims under KRS 118.176, To the extent Movant
asserts the same, those claims have been previously
adjudicated and are barred by the doctrine of res
judicata.
IT IS HEREBY ORDERED that Movant's
Motion challenging the ballot status of Respondent
Andy

Beshear

for

Governor

of Kentucky

is

considered and DENIED.
IT IS FURTHER ORDERED that the above
matter is DISMISSED with prejudice.
This is a final and appealable Order and there
is no just cause for delay.
(signature stamp)

I

a35
JUDGE OLU A. STEVENS
DATE:
Distribution:
Geoffrey Young
Plaintiff (sic) Pro Se
Christie Moore
Counsel for Respondent Andy Beshear
Entered
19-CI-006292
11/06/2019
David L. Nicholson, Jefferson Circuit Clerk
Appendix F

Commonwealth of Kentucky
Court of Appeals
NO. 2019-CA-001659-I (sic)
GEOFFREY M. YOUNG

MOVANT

ON MOTION FOR INTERLOCUTORY (sic) RELIEF
v.
FROM JEFFERSON CIRCUIT COURT
HONORABLE OLU A. STEVENS, JUDGE
ACTION NO. 19-CI-006292

s

%

a36
ANDY BESHEAR

RESPONDENT
ORDER
jjssjc sjcsjc

BEFORE:

5ft

CLAYTON, CHIEF JUDGE,
GOODWINE AND JONES, JUDGES

This cause comes before the Court on Movant
Geoffrey M. Young's motion to set aside the Jefferson
Circuit Court's November 6, 2019 order denying him
relief pursuant to KRS (footnote 1: Kentucky Revised
Statutes) 118.176(4). The circuit court found that
Mr. Young did not meet his burden of proving that
Andy Beshear was not a bona fide candidate for
governor and dismissed his challenge to Mr.
Beshear's qualifications. Mr. Young also filed a
motion to transfer this case [footnote 2: “We may
only recommend a case for transfer to the Kentucky
Supreme Court under CR 74.02(5).] [footnote 3:

a37
Kentucky Rules of Civil Procedure]
On November 14, 2019, this Court entered a
show cause order directing Mr. Young to show cause
why this action sould not be dismissed as improperly
taken. As grounds for the order, the Court
referenced Gibson v. Thompson, 336 S.W.3d 81, 83
(Ky. 2011), in which the Supreme Court held that
“the expedited appeal procedure set forth in KRS
118.176(4) applies only to orders disqualifying a
candidate[.]” Here, the circuit court order at issue
did not disqualify Mr. Beshear as a candidate;
therefore, it appeared that this motion for
interlocutory relief was the improper procedure to
invoke the Court's jurisdiction. Mr. Young
subsequently filed a timely response to the show
cause order. The matter now stands before the Court
for consideration.

a38
Having reviewed Mr. Young's motion to set
aside and his response to the Court's show cause
order, and being sufficiently advised, the Court
hereby ORDERS as follows: 1) Mr. Young's motion
to transfer this matter to the Supreme Court of
Kentucky shall be, and hereby is, DENIED; and 2)
the subject action is hereby DISMISSED as
improperly taken.
Analysis
“The courts of this Commonwealth have long
recognized that the judicial branch has no inherent
power to pass on the validity of elections or the
eligibility of candidates, but only has such power as
given by the General Assembly or possessed at
common law through a quo warranto proceeding.”
Stephenson v. Woodward, 182 S.W.3d 162,167 (Ky.
2005), as modified (Jan. 19, 2006) (citation omitted).

a39
By enacting KRS 118.176, the General Assembly
“has delegated to the courts the sole authority to
judge the qualifications of candidates if a challenge is
filed before the election.” Id. However, this statute,
like other “statutes governing election procedures[,]
must be strictly complied with because compliance
with certain statutory steps are jurisdictional
requirements.” Id. at 169 (internal quotation marks
and citations omitted). This requirement of strict
compliance dictates the resolution of the subject
action.
KRS 118.176 provides, in pertinent part:
(2) The bona fides of any candidate
seeking nomination or election in a
primary or in a special or regular
election may be questioned by any
qualified voter entitled to vote for the
candidate or by an opposing candidate
by summary proceedings consisting of a
motion before the Circuit Court of the
judicial circuit in which the candidate

a40
whose bona fides is questioned resides.
An action regarding the bona fides of
any candidate seeking nomination or
election in a primary or in a special or
regular election may be commenced at
any time prior to the regular election.
The motion shall be tried summarily
and without delay. Proof may be heard
orally, and upon motion of either party
shall be officially reported. If the Circuit
Judge of the circuit in which the
proceeding is filed is disqualified or
absent from the county or is herself or
himself a candidate, the proceeding may
be presented to, heard and determined
by the Circuit Judge of any adjoining
judicial circuit.

(4) If the court finds the candidate is not
a bona fide candidate it shall so order,
and certify the fact to the board of
elections, and the candidate's name
shall be stricken from the written
designation of election officers filed with
the board of elections or the court may
refuse recognition or relief in a
mandatory or injunctive way. The order
of the Circuit Court shall be entered on
the order book of the court and shall be
subject to a motion to set aside in the
Court of Appeals. The motion shall be

a41
heard by the Court of Appeals or a
judge thereof in the manner provided
for dissolving or granting injunctions,
except that the motion shall be made
before the court or judge within five (5)
days after the entry of the order in the
Circuit Court, and may be heard and
tried upon the original papers, and the
order of the Court of Appeals or judge
thereof shall be final.
In Gibson v. Thompson, supra, three regi­
stered Democrats moved for relief under CR 65.09
from an order of this Court refusing to invalidate the
candidacy of Thompson, a Republican candidate for
Knott County Judge-Executive. The Movants argued
Thompson was not qualified as a candidate due to
certain federal criminal convictions.

Id. at 81-82.

The circuit court did not reach movants' arguments,
but instead dismissed the action without prejudice,
"concluding

that

the

Movants,

all

registered

Democrats, lacked standing to challenge Thompson's

*

a42
qualifications in the primary election.” Id. at 82.
The Movants then moved to set aside the
circuit court's order pursuant to KRS 118.176(4).
This Court denied the motion to set aside, and the
Supreme Court of Kentucky denied the movants' CR
65.09 motion, holding that “[t]he motion must be
denied because the Movants were not entitled to
move the Court of Appeals for relief pursuant to KRS
118.176. Id. In particular, the Supreme Court noted:
Here, the trial court made no finding
that Thompson was not a bona fide
candidate. Its order dismissing is based
solely on the Movants' lack of
standing.... Because the expedited
appeal procedure set forth in KRS
118.176(4) applies only to orders
disqualifying a candidate, the Movants
were not entitled to move the Court of
Appeals to set aside the order. For this
reason, the Movants' motion for
interlocutory relief pursuant to CR
65.09 must be denied.
Id. at 83.

e*

a43
In the case sub judice, the circuit
court did not find that Mr. Beshear was
“not a bona fide candidate.” KRS
118.176(4). Therefore Mr. Young may
not invoke this Court's jurisdiction
through the expedited appeal procedure
set forth in KRS 118.176(4).
■ M

Gibson,

336 S.W.3d at 82-83.
We note that Mr. Young devotes a significant
portion of his response to the Court's show cause
order complaining about the continued viability and
applicability of Gibson v. Thompson. However, the
Court of Appeals is bound to follow precedents
established by the Supreme Court. Univ. of
Kentucky v. Lexington H-L Servs., Inc., 579 S.W.3d
858, 862-63 (Ky. App. 2018); SCR (footnote 4: Rules
of the Supreme Court.) 1.030(8)(a). Since Gibson is

a44
plainly applicable here, we are compelled to adhere
to it.
Finally, we deny Mr. Young's motion to
transfer this case to the Supreme Court. CR 74.02(5)
provides that this Court may recommend a case for
transfer to the Supreme Court “at any time” if the
case “falls within the criteria set forth in paragraph
(2) of CR 74.02.” CR 74.02(2) provides:
Such transfer is within the discretion of
the Supreme Court and will be granted
only upon a showing that the case is of
great and immediate public importance,
except that if separate appeals in a
criminal case to the Supreme Court and
to the Court of Appeals arise from the
same trial, the Supreme Court in its
discretion, on motion of the appellant
whose appeal lies to the Court of
Appeals, may transfer the latter appeal
to the Supreme Court. The filing of a
notice of appeal in a case in which a
death penalty has been imposed will
automatically serve to transfer the
appeal to the Supreme Court.

a45
We conclude that this case is not of “great and
immediate public importance” because Mr. Young's
motion to set aside is governed by the unambiguous
provisions of KRS 118.176(4) and simply does not fall
within the statute.
Conclusion
For the foregoing reasons, Movant's motion to
set aside pursuant to KRS 118.176(4) is DISMISSED
as improperly taken. Movant's motion to transfer
this case to the Supreme Court of Kentucky is
DENIED.
ENTERED:

FEB 27 .2020
(signature of Allison Jones)

JUDGE, COURT OF APPEALS

a46
Appendix G
OFFICE OF THE CLERK

SUPREME COURT OF KENTUCKY
ROOM 209, STATE CAPITOL
700 CAPITAL AVE.
FRANKFORT, KENTUCKY 40601-3488
SUSAN STOKLEY CLARY
Clerk

Telephone:
(502) 564-4720
FAX:
(502) 564-5491

March 20, 2020
Geoffrey Young
454 Kimberly Place
Lexington, KY 40503
RE:

Geoffrey Young v. Andy Beshear
File No.: 2019-CA-001659

Dear Mr. Young:
We have received from you the pleading identified
below. Because it is not submitted within the time
allowed by directions of the Court, it is being
returned to you (in accordance with CR 65.09, this
filing was due to be filed within five (5) days of the
Court of Appeals order denying relief under CR 65.
The pleading below was not received until March 18,
2020.)
Sincerely,

A

a47
KELLY STEPHENS, CLERK
By:

(initials RA)
Deputy Clerk

Enclosure: 1 copy of Motion for Discretionary
Review and check #1084 for $150.00.

